Fs
I

C@OCKLE

E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

2311 Douglas Street

Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-963

STEPHEN K. WALTON, SR.,
Petitioner,
v.
VIRGINIA INTERNATIONAL TERMINALS, LLC,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION TO
PETITION FOR WRIT OF CERTIORARI in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 4313 words, excluding the parts
that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 11th day of March, 2021.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

) BENERAL NOTARY-State of Nebraska & Chie
RENEE J, GOSS O. ( eda ‘

Affiant 40765

 

 

My Comm. Exp. September 5, 2023

Notary Public
